No. 19-1134

 

IN THE

Supreme Court of the United States

Lonny E. BALEY, et al.,

Petitioners,
Vv.

UNITED STATES and PACIFIC COAST
FEDERATION OF FISHERMAN’S ASSOCIATIONS,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit

BRIEF OF THE AMERICAN FARM BUREAU
FEDERATION AND THE STATE FARM BUREAU
ORGANIZATIONS OF ARIZONA, CALIFORNIA,
COLORADO, IDAHO, HAWAII, MONTANA, NEVADA,
NEW MEXICO, OREGON, UTAH, WASHINGTON,
AND WYOMING AS AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,348 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 15, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
